<html>
<title> - NOMINATION HEARING OF JAMES BRETT BLANTON FOR ARCHITECT OF THE CAPITOL</title>
<body><pre>[Senate Hearing 116-146]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-146

 NOMINATION HEARING OF JAMES BRETT BLANTON FOR ARCHITECT OF THE CAPITOL

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-799                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
James Brett Blanton, nominee for Architect of the Capitol........     2

                         Prepared Statement of:

James Brett Blanton, Nominee for Architect of the Capitol........    11

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to James Brett Blanton, Nominee for Architect of the 
  Capitol........................................................    15
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  James Brett Blanton, Nominee for Architect of the Capitol......    20
Hon. Cortez Masto, a U.S. Senator from the State of Nevada to 
  James Brett Blanton, Nominee for Architect of the Capitol......    21

 
 NOMINATION HEARING OF JAMES BRETT BLANTON FOR ARCHITECT OF THE CAPITOL

                              ----------                              


                      THURSDAY, DECEMBER 12, 2019

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
301, Russell Senate Office Building, Hon. Roy Blunt, Chairman 
of the Committee, presiding.
    Present: Senators Blunt and Fischer.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning. I think some of my colleagues 
will be attending as the hearing progresses, but I am certainly 
glad to be here with Brett Blanton, the President's nominee to 
be the Architect of the Capitol. Also pleased to see Tom 
Carroll here who has stepped in as the Acting Architect with 
lots of big projects and frankly waiting for the permanent 
Architect to be chosen. Tom has been doing a lot of those 
projects without the kind of support that the Architect would 
normally have. So Tom, thanks for your leadership and stepping 
up.
    Before you begin your remarks, Mr. Blanton, I would like to 
extend my congratulations to you on this nomination and 
recognize your family, your wife Michelle, your daughters 
Reilly and Kiran, your mom Ann, and grandpa Steve. My staff and 
I had the privilege of meeting with a number of people on this 
topic, but when we met with Mr. Blanton, it was obvious that 
his background and his credentials were a great match for this 
job.
    So, glad to see the President make this decision. Mr. 
Blanton is a licensed professional engineer. He received his 
Bachelor's degree in Aeronautical Engineering from the U.S. 
Naval Academy, his Master's degree in Ocean Engineering from 
Virginia Tech. He is a third-generation naval officer, having 
spent 21 years in the Navy where he received the Bronze Star 
for his service in Iraq. Mr. Blanton's last position in the 
Navy was the Acting Chief Engineer for the Joint Chiefs of 
Staff in Washington, DC. Mr. Blanton, thanks for your military 
service. He also now brings to this position over 25 years of 
executive experience, and facilities operations and 
construction management.
    He is currently the Deputy Vice President for the 
Metropolitan Washington Airport Authority, where he is 
implementing a $1.5 billion long-term strategic capital plan 
for both the Dulles and Reagan National Airports. I think Mr. 
Blanton has also played a critical role in the Silver Line 
Metro extension to Dulles. If the Senate confirms you, Mr. 
Blanton, I imagine your current employer will miss your skills 
very much, but we look forward to having them here. It is a big 
job.
    First Architect of the Capitol was named by George 
Washington. The current Architect will have an agency that 
manages a budget of over $800 million with 12 jurisdictions, 
including the Capitol building and grounds, the Senate and 
House office buildings, the Library of Congress, the Supreme 
Court, the Botanical Gardens, and other facilities. 2,300 
people ranging from architects and engineers to hourly service 
workers are part of that job and it truly is a big job. 18.4 
million square feet of facilities, 570 acres of grounds, 
thousands of works of art, many monuments that make up the 
historic Capitol collection and complex, have over 3 million 
visitors a year come to the Capitol, and frankly, the next 
Architect the Capitol will inherit an agency experiencing a 
number of stresses.
    As I mentioned before, there are a significant number of 
executive leadership positions that need to be filled, but for 
somebody taking this job, I think that is more of an 
opportunity than a challenge. These buildings have been here a 
while. So the aging nature of the architecture and the 
infrastructure are both a challenge. We have got projects going 
on both sides of the Capitol, House and Senate. They are good 
examples of what a big challenge that can be, but I am 
confident with your abilities you are going to be able to 
successfully lead this agency. I look forward to hearing your 
thoughts on the challenges that may arise, and I will say short 
of some huge and unanticipated problem in this hearing today, I 
hope we can move this nomination very quickly.
    So, Mr. Blanton, we have your written statement in the 
record, but if you would like to share some of the thoughts in 
that statement or the statement itself with us, let us take 
about 5 minutes for that.

 OPENING STATEMENT OF JAMES BRETT BLANTON, TO BE THE ARCHITECT 
                         OF THE CAPITOL

    Mr. Blanton. Thank you, Chairman Blunt, Senator Fischer, 
and other members of the committee. I will give you an abridged 
version of my opening statement for the sake of time. I am 
honored to appear before you as President Trump's nominee to 
become the 12th Architect of the Capitol. Before I begin, I 
would like to recognize and thank my loving wife Michelle, my 
daughters Reilly and Kiran, Alexis our eldest daughter lives in 
Ohio and could not attend in such short notice.
    I would like to also thank Ann, my mother, and grandpa 
Steve who are in attendance. Without the strong support and 
moral guidance of my family, I would not be where I am today. 
Finally, I would like to thank you and your staff for the 
comprehensive and thorough bipartisan, bicameral congressional 
commission, which yielded several highly qualified candidates 
for the President to select a nominee. I am truly honored to be 
that nominee.
    Chairman, as you allude to, the origins of the Architect of 
the Capitol are rooted in the very history of our 
representative republic in the city of Washington, DC. 
President George Washington appointed three commissioners to 
provide a suitable building to accommodate Congress. The 
commissioners hired Pierre L'Enfant to lay out the capital city 
and staged a competition for the design of the Capitol itself.
    President Washington awarded the Capitol building to Dr. 
William Thornton for his design to serve as the blueprint for 
America's Government headquarters. William Thornton is credited 
as the first Architect of the Capitol, commonly called AOC. The 
vision of William Thornton has been extended through 10 
successors. In fact, the Capitol has been undergoing continued 
construction, with exception of a small period of time during 
the 1800's, since George Washington laid the cornerstone in 
1793.
    Today, AOC employees work everyday to serve Congress and 
the Supreme Court, preserve America's Capitol, and inspire 
memorable experiences for those who visit the building and 
grounds. This enormous responsibility of these duties is not 
lost on me. The AOC staff is responsible to the U.S. Congress 
for the maintenance, operation, development, and preservation 
of 18.4 million square feet of facilities, 570 acres of 
grounds, and thousands of works of art. I bring a unique 
background to the Architect of the Capitol.
    I consider myself a leader of change with extensive 
experience in facilities operations and construction management 
in highly visible and public environments. My experience 
includes developing long-term master planning, project 
planning, sustainable design, building maintenance, physical 
security management, and financial management. I pride myself 
with the ability to simultaneous develop short-term and long-
term capital funding priorities across multiple locations.
    Currently at the Metropolitan Washington Airports 
Authority, I am leading a $1.5 billion capital planning and 
design construction program at two of the most architecturally 
significant facilities in the greater Washington, DC area, the 
Eero Saarnien designed terminal at Dulles International 
Airport, and the Cesar Pelli designed terminal at Reagan 
National. Major construction projects at airports involve many 
of the same risks and challenges experienced on the Capitol 
campus. The work must occur while minimizing disruption to 
tenants, occupants, and the traveling public.
    Additionally, safety and health concerns are paramount 
while executing construction at locations that serve 
approximately 50 million passengers a year. I am also a retired 
civil engineer corps officer who oversaw some of the largest 
infrastructure projects undertaken by the Department of Navy. I 
served as an adviser to two Senate confirmed political 
appointees and two administrations of both political parties 
and worked to formulate and manage Navy and Marine Corps 
energy, installation, and environment policies. I was a federal 
acquisition professional with the highest contracting warrant. 
I am a registered professional engineer and a graduate of the 
U.S. Naval Academy.
    My military career offered me diverse leadership 
experiences ranging from U.S. and overseas locations to serving 
in combat zones, Navy headquarters, and the joint staff. I 
fully realize trade organizations and magazines have taken 
public opinion that the Architect of Capitol must be an 
architect. I respectfully disagree.
    The Architect of the Capitol needs to be a strong, 
transformational leader who has experience managing historical 
facilities in a customer service environment. It requires a 
leader who will usher in a new era of transparency and 
accountability to effectively maintain and preserve the 
universally recognized symbol of western democracy in the 
world. I am that leader. The Office of the Architect of the 
Capitol has a well-deserved reputation of employing some of the 
Nation's best engineers, architects, historical 
preservationists, and skilled trades personnel.
    However, in recent years, there have been some leadership 
challenges which contribute to difficulty attracting and 
retaining a skilled and engaged workforce. In order to maintain 
these iconic facilities on the Capitol campus, we must recruit, 
train, and retain the best possible workforce.
    Unfortunately the AOC's glassdoor.com rating, which is a 
website many professionals use to determine when they are 
seeking employment, is a neighborhood of 2 out of 5 stars. We 
can do better. As such, I will implement a human capital 
strategy to address the changing workforce, ensure succession 
planning, and train or retain our top talent.
    Additionally, I will have a zero tolerance policy for 
harassment, discrimination, and unethical behavior. We cannot 
expect to attract the Nation's top workforce without adapting 
and changing our culture. Changing the culture of any large 
organization takes time but change must begin at the top, and 
it must begin by implementing a new mandate of transparency, 
accountability, and responsiveness.
    The Office of the Architect of the Capitol must better 
partner with the members and staff of the Senate, House, and 
Supreme Court. Together, we all have the same goal, maintaining 
and preserving the Capitol campus for generations to come. I 
plan to usher a new era of stewardship. I see our first 
opportunity to implement the new standards of transparency, 
accountability, and responsiveness to be the planning for the 
2021 Inauguration.
    The Inauguration is a unique and important occurrence. The 
world will be watching, so we must all work together to ensure 
the next Inauguration is exceptionally successful.
    I was happy to read that the AOC earned its 15th 
consecutive unmodified, or clean, audit opinion on the 
financial statements and received its eight consecutive 
Certificate of Excellence in Accountability from the 
Association of Government Accounts. These are no small 
accomplishments. However, it is my understanding that the 
Capitol has a $1.77 billion maintenance backlog as of September 
30th.
    Although Congress and the Office of the Architect of the 
Capitol have a mandate to preserve our seat of representative 
republic for future generations, it is unrealistic to think 
that we can afford to immediately appropriate funding to retire 
this backlog. I also understand that the AOC has a robust 
condition assessment program that meticulously categorizes the 
material state of each facility.
    I plan to utilize this existing condition assessment 
program as the backbone of a comprehensive enterprise asset 
management program that will enable us to optimize projects 
that produce the highest rate of return for facility longevity. 
Additionally, this will allow us to rank projects against other 
projects to determine which projects will actually have the 
best results.
    Finally, when it comes to projects undertaken by the AOC, I 
plan to have a constant channel of communication between 
members and their staffs. As I allude to in my full statement, 
the more information you and your team know, the less time I 
will spend reacting to questions and concerns, thus allowing me 
to focus on the actions and issues that will transform the 
management of the Office of the Architect of the Capitol.
    I believe that the Office of the Architect of the Capitol 
has all the elements to succeed in its mission to serve 
Congress, the Supreme Court, preserve America's Capitol, and 
inspire the memorial experiences of all who visit the Capitol 
campus. Should I be confirmed, I will build upon the enormous 
legacy of my 11 predecessors and usher in a new era of positive 
change to the organization. I see the Members of Congress, the 
oversight committees, your staff, and the Architect as partners 
in preserving the most iconic symbols of western democracy in 
the world.
    Chairman Blunt and members of the committee, thank you for 
the opportunity to appear before you today. I welcome any 
questions you may have.
    [The prepared statement of Mr. Blanton was submitted for 
the record.]
    Chairman Blunt. Well, thank you, Mr. Blanton. Let's start 
with your commitment on transparency and responsiveness. The 
first question, just a yes or no question. If confirmed, do you 
commit to answer every question and provide all information 
requested by this committee and its staff and to comply as soon 
as possible?
    Mr. Blanton. Yes.
    Chairman Blunt. The comments--I thought you made some 
significant comments in your statement. That will of course be 
available to all of the Members. The last Architect of the 
Capitol served only 8 years of the 10-year term. If confirmed, 
do you plan to serve the full 10-year term as Architect of the 
Capitol?
    Mr. Blanton. I do. Regarding a necessity health or other 
emergencies, which would cause me to resign.
    Chairman Blunt. How do you plan to recruit, select, and 
retain members of your executive leadership team?
    Mr. Blanton. So in my 25 years experience, I have developed 
a vast network of professionals that I trust, they are truly 
honorable and ethical people. I will use my social network as 
well as on some of the key positions, I am going to want to 
have headhunters involved so we can go nationwide and get the 
best talent possible. Part of my plan is that when we change 
our culture, we are going to attract people because there are 
going to be lines of people waiting who want to come here.
    Chairman Blunt. Well, I hope that is the case. In your 
comments, I think it was obvious you understand the uniqueness 
of this job and in so many ways there is only one like it. I 
was interested in your comments. I mentioned 3 million 
visitors, you mentioned 50 million passengers. You may be one 
of the few people that could sit at that table and think, well, 
3 million, surely you can handle 3 million if at those two 
airports you have handled 50 million passengers.
    But, we do want people who come to this building from our 
country and from all over the world. There is no Capitol 
anywhere in the world as open and as accessible as this one. It 
is a significant example of who we are. It is a significant 
part of who we are and being sure that that experience works in 
the way that American citizens would expect it to work and that 
others would be impressed that it worked that way I think is 
really important. Each of the agencies 12 jurisdictions has 
authority to implement and discipline--well, to implement 
discipline and other human resource policies. This can create 
inconsistency and disparate treatment.
    What do you think as you look at 12 entities with the kind 
of flexibility that they had on personnel issues as you look at 
that particular problem?
    Mr. Blanton. Coming from DOD, it is not too uncommon to 
have organizations that execute the H.R. policies. However, 
what you have, and I see that from my initial review, the 
organization in our H.R. policies is that--we need to 
centralize the policies and procedures so there is consistency 
amongst the organizations. The jurisdiction should be able to 
execute them, but they should be centralized so there is 
consistency among each one of the jurisdictions.
    Chairman Blunt. I think that has been one of our concerns 
in this committee that you didn't have from agency to agency 
the same kind of well understood policies and even people that 
would transfer from one unit to the other might not know what 
the overall expectations were. So, I think that is good. I 
noticed also in your comments you expressed you have zero 
tolerance for discrimination and harassment. How would you 
address any incidents of discrimination or harassment in the 
agency?
    Mr. Blanton. Swiftly, would be the first thing. Then also 
have to make sure our policies have set procedures so that they 
can be addressed and the person who is the victim has 
protections as well as the person who has the complaint against 
them has a due process to determine whether there is actually a 
justified complaint or not. Since I have not been in the seat 
yet, I haven't reviewed all of our policies, but I will say it 
is going to be swift and it will be fair.
    Chairman Blunt. What role do you think diversity plays in 
creating an effective agency, particularly in agency, 
particularly an agency like this one?
    Mr. Blanton. So for me, it is more of a diversity of 
thought, and that comes from having people of different ethnic 
backgrounds, religious backgrounds, geographic and 
socioeconomic backgrounds. They bring in a new amount of 
thought. So I prioritize the different opinions of different 
groups as when it comes to being a thought leader.
    Chairman Blunt. You mentioned the budget and you were 
pleased that the audits showed that, financially, the audits 
showed a positive financial audit. What would you do to ensure 
stewardship and accountability over this huge budget that you 
are going to be asked to be responsible for?
    Mr. Blanton. So I view that as two questions. The first 
question being the accountability. It shows, in the audits, 
that the accountability exists because we could determine where 
the funds are spent and what they were spent on. Stewardship is 
the second question that I think is of much greater importance 
because it would allow us to show, are we doing the best with 
the money that is appropriated as opposed to just spending it 
and knowing where we spent it.
    I do say, I will have to review all of our policies, but 
when it comes down to project planning and comes down to the 
execution of it, I think strict project controls and strict 
change management is essential to doing the best stewardship of 
our money. Also when it touches on the accountability and the 
responsiveness to the committees. I want the committees and the 
staff members to know what changes will occur and what the 
consequences of these changes will be so that they can, 
themselves, judge what will happen should a change occur to a 
project.
    Chairman Blunt. Good. The process of nomination by the 
President, but nominating from a group of people recommended by 
the Congress, this is the Architect of the Capitol, and there 
is a difference on the two ends of the street here of who is 
responsible for what. I think the Chairman of House 
Administration and I would both view that you work for the 
Congress. You've got to be confirmed by the Congress, you were 
recommended by the Congress.
    I don't know that that requires any kind of response from 
your part, but whenever you get consultation and advice from 
the Congress, I hope you take that seriously. I would expect we 
would have at least one hearing a year where you would be here 
with whatever staff you think you need to have with you to talk 
about ongoing projects, to talk about the kind of progress you 
are making on that troublesome backlog of maintenance. I think 
the Cannon Building, while it is on the other side of the 
Capitol, is a great example of what happens when backlogs are 
allowed to buildup and maintenance is allowed to go away and 
nobody more than the Acting Architect of the Capitol could 
express to us today what a challenge that has been.
    But this job, the Architect of the Capitol is the Architect 
that works at the direction and to report to the Congress. Back 
to the very first question I asked, I just want to be sure as 
we move through this today that there is no uncertainty on that 
issue.
    The Architect of the Capitol has in law some substantial 
leeway, but that leeway should really only be used if you are 
going to have the kind of relationships you want to have, with 
explaining why you are using it and consultation and all the 
things you are talking about in terms of stewardship, in terms 
of a policy that looks for diversity, that insists that 
harassment not be part of the workplace, looks for consistency. 
I think all good.
    What is your view of how quickly you want to begin to look 
at the master plan, to review the current master plan, and come 
up with your own sense with your staff that you will soon be 
responsible for of where that master plan makes sense and where 
it can't possibly be executed and what needs to be added to it?
    Mr. Blanton. So, I would like to review the current master 
plan pretty quickly within my first 90 days. As far as the next 
version of the master plan, I would see myself starting with a 
little different tact. I think you start out first with a 
vision, and that vision is a collaborative vision. It would be 
a vision that would between the Office of the Architect of the 
Capitol and the members and staff we support.
    That then will be transferred into more of what you see as 
a traditional master plan, which has the projects and how you 
are going to implement them and how you are going to judge the 
effectiveness of your execution of it. Then you immediately 
follow that with the implementation plan which would be a phase 
plan over multiple years saying these five projects be executed 
in this sequence, for example. But it all starts initially with 
a vision and vision is the thing that needs to be shared 
amongst all of us.
    Chairman Blunt. Yes. Then I think you need to effectively 
share it with us. You know, this is the oversight committee on 
the Senate side, but the other committee, the appropriating 
committee, the Legislative branch and the other appropriating 
committee that you will need to work with, very important to 
try to be sure that they are brought into your vision and your 
priorities. You know, obviously it is always more exciting to 
build new things than to take care of the things you already 
have. That is something I am confident you are going to be able 
to do.
    I think the Inspector General relationship has not been 
what it could be. Talk to me a little about your view of the 
role and impact of the Inspector General on the agency. I think 
there has been a feeling the Inspector General worked for the 
Architect of the Capitol as another instrument of the 
Architect. That is not really the way it works most other 
places.
    Mr. Blanton. So I actually feel pretty lucky being in a 
situation coming as an outsider because I would see myself 
utilizing the Inspector General as a partner to help me find 
areas that I would need to focus on. Inspector Generals, in 
general, have a dual role. They work for the agency and they 
work for Congress. So I respect that. I have dealt with that 
throughout my career and I would see myself dealing with the 
Architect of the Capitol's Inspector General similarly.
    Chairman Blunt. You are prepared to start this job whenever 
confirmed?
    Mr. Blanton. I have a period, a waiting period, I have to 
do upon confirmation, so I am targeting mid-January.
    Chairman Blunt. Anything you want to add?
    Mr. Blanton. Other than it has been my pleasure, sir, and I 
look forward to working with you.
    Chairman Blunt. Well, I want to thank you for joining us 
today. As I said earlier, I intend to move this nomination 
quickly. I will be meeting with the full committee probably as 
early as early next week. They will have some questions that 
they might submit for the record. If you have questions for the 
record since we want to deal with this as quickly as we can so 
we can get you started early next year, please respond quickly 
to those questions when you get them.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Thanks for appearing today. I was pleased 
to see your family here with you, and hopefully this will all 
go as well as we need it to because we need you on board and we 
need the kind of leadership that the President and the Congress 
both have believed up till this point that you can provide. I 
think the Senate when it confirms will verify that one other 
time. Adjourned.
    [Whereupon, at 10:26, the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
  

                                  [all]
</pre></body></html>
